HHS/OIG-Audit--"Review of Medicare Credit Balances in Michigan, (A-05-91-00072)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Credit Balances in Michigan," (A-05-91-00072)
May 15, 1992
Complete Text of Report is available in PDF format
(1.72 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report disclosed that Medicare accounts receivable credit balances
included overpayments totaling an estimated $8.6 million in the State of Michigan.
The estimated overpayments were associated with 56 hospitals in Michigan serviced
by Blue Cross and Blue Shield of Michigan (BCBSM) as the medicare fiscal intermediary.
The overpayments existed because both the hospitals and BCBSM did not review
credit balances and process adjustments timely. We are recommending recovery
of the overpayments and procedural improvements to ensure that the hospitals
and BCBSM perform more timely reviews.